                                                                             Report No. DODIG-2014-105



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 9, 2014




                     Evaluation of Military Criminal
                     Investigative Organizations’ Child
                     Sexual Assault Investigations




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
      Our mission is to provide independent, relevant, and timely oversight
      of the Department of Defense that supports the warfighter; promotes
      accountability, integrity, and efficiency; advises the Secretary of
                 Defense and Congress; and informs the public.



                                              Vision
      Our vision is to be a model oversight organization in the Federal
      Government by leading change, speaking truth, and promoting
      excellence—a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                                        Fraud, Waste & Abuse

                                        HOTLINE
                                        Department of Defense
                                         dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Evaluation of Military Criminal Investigative
                                Organizations’ Child Sexual Assault Investigations



September 9, 2014                                   Findings Continued

Objective                                                 •	 logical investigative leads, such as interviews of
                                                             witnesses, or leads gleaned during interviews were not
We evaluated 163 Military Criminal Investigative             addressed or conducted; and
Organization (MCIO) investigations of sexual
assaults of children closed in 2012 to determine          •	 physical or digital evidence was not collected.
whether the MCIOs completed investigations
as required by DoD, Military Service, and           Recommendations
MCIO guidance. Our evaluation focused on:
                                                       •	 The Director and Commanders of the MCIOs:
   •	 whether the MCIOs investigated child
                                                          •	 continue to emphasize thorough completion of all child
      sexual assaults as required by guiding
                                                             sexual assault investigations,
      policies and procedures.
                                                          •	 implement measures to improve the issuing and/or
Findings                                                     recording the DD Form 2701, and

   •	 A total of 153 of 163 MCIO investigations           •	 consider enhancement of existing policy guidance
      (94 percent) met investigative standards.              regarding the collection of clothing and digital evidence

   •	 A total of 10 of 163 MCIO investigations         •	 The Director, Naval Criminal Investigative Service improve
      (6 percent) had significant deficiencies.           guidance and enhance supervision regarding responses to
      We returned those 10 cases to the MCIOs             crime scenes.
      for follow-up corrective action.

   •	 A total of 57 of the 163 cases had no         Management Comments and
      investigative deficiencies.                   Our Response
   •	 The remaining 96 cases had minor              Management comments were generally responsive; however,
      deficiencies that had no impact on the        the Commander, U.S. Army Criminal Investigation Command
      outcome or resolution of the investigation.   (CID) expressed concern regarding our review processes. The
                                                    project’s evaluation and reporting processes were independently
   •	 All three MCIOs had instances in which:
                                                    evaluated and were found to comply with the Council of Inspectors
       •	 they either did not issue or did not      General for Integrity and Efficiency (CIGIE) standards. We
          properly document the issuance of the     considered management comments on a draft of this report when
          DD Form 2701, “Initial Information        preparing the final report and made changes as appropriate.
          for Victims and Witnesses of Crime,” to
          victims or the appropriate guardian or
          family member;

       •	 subject, victim, and witness interviews
          were not thorough;


Visit us at www.dodig.mil                                                            DODIG-2014-105 (Project No. 2013C002) │ i
                   Recommendations Table
                                                                                   No Additional
                                             Management                          Comments Required
                     The Director and Commanders of the Military Criminal                   1, 2, 3, and 4.a
                     Investigative Organizations
                     The Commander, U.S. Army Criminal Investigation Command                            4.b
                     The Director, Naval Criminal Investigative Service                          4.b and 5
                     The Commander, Air Force Office of Special Investigations                          4.c




ii │ DODIG-2014-105 (Project No. 2013C002)
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                             September 9, 2014

MEMORANDUM FOR COMMANDER, U.S. ARMY CRIMINAL INVESTIGATION COMMAND
               DIRECTOR, NAVAL CRIMINAL INVESTIGATIVE SERVICE
               COMMANDER, U.S. AIR FORCE OFFICE OF SPECIAL INVESTIGATIONS

SUBJECT:	 Evaluation of Military Criminal Investigative Organizations Child Sexual Assault
          Investigations (DODIG-2014-105)

This report is provided for review. We evaluated Military Criminal Investigative
Organization (MCIOs’) child sexual assault investigations to determine whether they
achieved DoD, Military Service, and MCIO investigative standards. This was a self-initiated
project to meet our statutory obligation to provide policy, oversight, and performance
evaluation of all DoD activities relating to criminal investigation programs.

We determined that nearly all (94 percent) of the MCIOs’ child sexual assault
investigations evaluated met investigative standards or had only minor deficiencies.
We returned cases with significant deficiencies to the responsible MCIOs for corrective
action. Significant deficiencies are key evidence not being collected, crime scenes not
examined, and witness or subject interviews not conducted or not thorough. The
recommendations and findings outlined in this report are based on our analysis of the
deficiencies identified during the case evaluations. We commend the MCIOs for their high
compliance rate and determined approach to solving such heinous crimes against children.

Additionally, we invite your attention to Appendix B, “Case Details,” which provides factual
data on a myriad of child sexual assault characteristics. This information may prove helpful
in combatting child sexual assault in the Department of Defense.

We considered management comments on a draft of this report when preparing the final
report and made changes as appropriate. We appreciate the courtesies extended to the
evaluation staff during the project. For more information on this report, please contact
Mr. Chris Redmond at (703) 604-8556 (DSN 664-8556).




	                                             Randolph R. Stone
	                                             Deputy Inspector General
	                                             Policy and Oversight




                                                                                             DODIG-2014-105 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background ______________________________________________________________________________________1
                      DoD Policy and Requirements______________________________________________________________2

                  Findings. Nearly all Child Sexual Assault Investigations
                  Were Completed as Required by Guiding Policies ___________3
                  Results of Child Sexual Assault Investigations_________________________________________________3
                      Cases with No Deficiencies or Minor Deficiencies________________________________________3
                      Cases with Significant Deficiencies_________________________________________________________4
                  Cases Returned to CID___________________________________________________________________________5
                  Cases Returned to NCIS__________________________________________________________________________6
                  Cases Returned to AFOSI________________________________________________________________________6
                  Analysis of Investigative Deficiencies_ _________________________________________________________6
                      Interview and Post-Interview Deficiencies________________________________________________6
                          Subject Interview and Post-Interview Deficiencies_ _________________________________6
                          Victim Interview and Post-Interview Deficiencies___________________________________7
                          Witness Interview and Post-Interview Deficiencies__________________________________8
                      Evidence Deficiencies_______________________________________________________________________8
                      Crime Scene Documentation and/or Processing Deficiencies_________________________ 10
                          Crime Scene Examination or Validation_____________________________________________ 11
                      Subject-Focused Action and Investigative Coordination
                         Administrative Deficiencies__________________________________________________________ 12
                  Demographic and Other Case Data __________________________________________________________ 12
                  Conclusions_____________________________________________________________________________________ 13
                      Initial Information for Victims and Witnesses of Crime________________________________ 13
                      Interviews__________________________________________________________________________________ 14
                      Collection of Evidence_____________________________________________________________________ 14
                      Crime Scene Examinations________________________________________________________________ 15




iv │ DODIG-2014-105
Contents (cont’d)
Management Comments on the Report and Our Response_________________________________ 15
    CID Comments_____________________________________________________________________________ 15
    NCIS Comments____________________________________________________________________________ 16
    AFOSI Comments__________________________________________________________________________ 16
    Our Response______________________________________________________________________________ 16
Recommendations, MCIO Comments, and Our Response___________________________________ 17
Recommendation 1. Adequacy of Investigations_ __________________________________________ 17
    CID Comments_____________________________________________________________________________ 17
    NCIS Comments____________________________________________________________________________ 17
    AFOSI Comments__________________________________________________________________________ 17
    Our Response______________________________________________________________________________ 17
Recommendation 2. Issuance of the DD Form 2701________________________________________ 18
    CID Comments_____________________________________________________________________________ 18
    NCIS Comments____________________________________________________________________________ 18
    AFOSI Comments__________________________________________________________________________ 18
    Our Response______________________________________________________________________________ 18
Recommendation 3. Interviews______________________________________________________________ 19
    CID Comments_____________________________________________________________________________ 19
    NCIS Comments____________________________________________________________________________ 19
    AFOSI Comments__________________________________________________________________________ 19
    Our Response______________________________________________________________________________ 19
Recommendation 4. Collection of Evidence_________________________________________________ 20
    CID Comments_____________________________________________________________________________ 20
    NCIS Comments____________________________________________________________________________ 20
    AFOSI Comments__________________________________________________________________________ 20
    Our Response______________________________________________________________________________ 21
    CID Comments_____________________________________________________________________________ 21
    NCIS Comments____________________________________________________________________________ 21
    Our Response______________________________________________________________________________ 22
    AFOSI Comments__________________________________________________________________________ 22
    Our Response______________________________________________________________________________ 22


                                                                                                    DODIG-2014-105 │ v
                  Contents (cont’d)
                  Recommendation 5. Crime Scene Validations_______________________________________________ 23
                      NCIS Comments____________________________________________________________________________ 23
                      Our Response______________________________________________________________________________ 23

                  Appendixes
                  Appendix A. Scope and Methodology________________________________________________________ 24
                  Appendix B. Case Details _____________________________________________________________________ 28
                      Case Deficiencies__________________________________________________________________________ 28
                  Appendix C. Memorandum of Results_ ______________________________________________________ 47
                  Appendix D. Table Listing_____________________________________________________________________ 49
                  Appendix E. Independent Review____________________________________________________________ 51

                  Management Comments_____________________________________________________ 52
                  CID Comments_ ________________________________________________________________________________ 52
                  NCIS Comments________________________________________________________________________________ 55
                  AFOSI Comments______________________________________________________________________________ 57

                  Acronyms and Abbreviations______________________________________________ 61




vi │ DODIG-2014-105
                                                                                                                                 Introduction




Introduction
Objective
We evaluated 163 Military Criminal Investigative Organization (MCIO)1 investigations
of sexual assaults of children closed in 2012, to determine whether the MCIOs
completed investigations as required by DoD, Military Service, and MCIO guidance.
Our evaluation focused on:

            •	 whether the MCIOs investigated child sexual assaults as required by
                guiding policies and procedures.


Background
The DoD Inspector General (IG) has statutory authority in accordance with the
Inspector General Act of 1978, as amended, for policy, oversight, and performance
evaluation with respect to all DoD activities relating to criminal investigation
programs. This authority is embodied in DoD Directive (DoDD) 5106.01,
“Inspector General of the Department of Defense (IG DoD),” April  20,  2012, and
DoD  Instruction  (DoDI)  5505.03, “Initiation of Investigations by Defense Criminal
Investigative Organizations,” March 24, 2011.

Although many elements of a child sexual assault investigation are the same as
any criminal investigation, child sexual assault investigations require unique skills
gained through specialized training, especially in the approach taken to obtaining
information from traumatized victims.

Within DoD, the MCIOs are responsible for investigating child sexual assaults.2
Additionally, the MCIOs are responsible for developing specific investigative policy
and requirements to govern the investigation of child sexual assault and for
training assigned special agents in accordance with the Services’ training
standards. Service-specific policies emphasize the use of multidisciplinary teams
to investigate and resolve child sexual abuse allegations. DoD and Service
Family Advocacy Program (FAP) policies prescribe structure, participation, and




	1	
    The MCIOs include the U.S. Army Criminal Investigation Command, Naval Criminal Investigative Service, and Air Force Office
    of Special Investigations.
	2	
    Article 120b was added to the 2012 edition of the Uniform Code of Military Justice. The new article is designed to address
    only child sexual offenses and applies to child sexual assault offenses committed on or after June 28, 2012. Articles 120
    and 125 (2008 edition) of the Uniform Code of Military Justice addresses child sexual assault offenses committed prior to
    June 28, 2012.




                                                                                                                             DODIG-2014-105 │ 1
Introduction



                 responsibilities of multidisciplinary teams. DoDD 6400.1, “Family Advocacy Program
                 (FAP),” August 23, 2004, refers to the multidisciplinary teams as case review committees
                 and they are made up of:

                                   designated individuals working at the installation level, tasked with
                                   the evaluation and determination of abuse and/or neglect cases
                                   and the development and coordination of treatment and disposition
                                   recommendations.


                 The DoD IG initiated this project to determine whether MCIO child sexual
                 assault investigations were investigated in compliance with policy and guidance.


                 DoD Policy and Requirements
                 DoDD 6400.1 specifies it is DoD policy to:

                                   Prevent child abuse and domestic abuse involving persons. . .
                                   through public awareness, education, and family support programs
                                   provided by the FAP, and through standardized FAP programs
                                   and activities for military families who have been identified as at-risk
                                   of committing child abuse or domestic abuse.

                                   Promote early identification and coordinated, comprehensive
                                   intervention, assessment, and support to persons. . . who are victims
                                   of suspected child abuse or domestic abuse . . .

                                   Provide appropriate resource and referral information to persons . . . 
                                   who are victims of alleged child abuse or domestic abuse.


                 DoDI 6400.3, “Family Advocacy Command Assistance Team,” February 3, 1989,
                 edition3 defined child sexual abuse as:

                                   A category of abusive behavior within the definition of child abuse
                                   that includes the rape, molestation, prostitution, or other such form
                                   of sexual exploitation of a child; or incest with a child; or the
                                   employment, use, persuasion, inducement, enticement, or coercion of
                                   a child to engage in, or assist in, any sexually explicit conduct (or any
                                   simulation of such conduct).




                 	3	
                       DoDI 6400.3 was reissued as DoDI 6400.03 on April 25, 2014. The 1989 edition of the DoDI was in effect during the course
                       of the investigations that we evaluated.




2 │ DODIG-2014-105
                                                                                              Introduction




Findings
Nearly all Child Sexual Assault Investigations Were
Completed as Required by Guiding Policies
A total of 153 of 163 (94 percent) MCIO investigations met investigative standards
or had only minor deficiencies. We also determined that MCIO child sexual assault
investigative procedures largely complied with DoD and Military Service guidelines.
However, we identified a few areas that need improvement.

In addition to analyzing the cases for compliance with guiding policies, we gleaned
demographic and other case data.



Results of Child Sexual Assault Investigations
A total of 153 of 163 (94 percent) MCIO investigations met investigative standards
or had only minor deficiencies. Fifty-seven cases (35 percent) met investigative
standards because they had no deficiencies. In 96 cases (59 percent), we found only
minor deficiencies that did not have a negative impact on the investigation. A total
of 10 of 163 (6 percent) MCIO investigations had significant deficiencies. We
returned the cases with significant deficiencies to the MCIOs for resolution. The
MCIOs reopened 8 of the 10 cases for additional investigative work. For the
remaining    two   cases,   the   MCIOs       determined,   and   we   agreed,   additional
investigative activity was not practicable due to the amount of time elapsed or
based on their judgment that additional efforts would be futile. The DoD IG will
oversee the results of reopened investigations.


Cases with No Deficiencies or Minor Deficiencies
Of the 163 cases evaluated, 153 (94 percent) either had no deficiencies or the
deficiencies noted did not have a negative impact on the investigation. A total of
57 cases had no investigative deficiencies. The remaining 96 cases had 1 or more
minor deficiencies that did not adversely affect the successful resolution of the
investigation. Table 1 depicts a breakdown by MCIO of the number of cases, with
no deficiencies or only minor deficiencies.




                                                                                          DODIG-2014-105 │ 3
Findings



                 Table 1. Cases with No Deficiencies or Minor Deficiencies
                             Case Deficiency                        Total                 CID                  NCIS                 AFOSI
                     None                                             57                   39                    13                     5
                     Minor Deficiencies                               96                   34                    38                    24
                     Total                                           153                   73                    51                    29


                 See Appendix B for details of all sample results.

                 A “minor deficiency” is a task or investigative step the MCIO investigator did not
                 perform, or performed not in conformity with DoD, Service, and MCIO policies
                 and procedures. A minor deficiency is not likely to affect the outcome or have a
                 negative impact on the investigation.

                 Examples of minor deficiencies4 include, but are not limited to the following:

                               •	 delays in completing certain logical investigative steps,

                               •	 appropriate medical records were not collected and reviewed,

                               •	 victim (or parent or guardian) was not issued a DD Form 2701, “Initial
                                   Information for Victims and Witnesses of Crime,”

                               •	 routine briefs to the victim (or parent or guardian) about the status of
                                   the investigation were not provided, and

                               •	 record         fingerprint         impressions,           mug        photographs,           and       sample
                                   deoxyribonucleic acid (DNA) of subjects were not obtained.

                 Cases with Significant Deficiencies
                 Of the 163 cases evaluated, 10 cases (6 percent) had significant deficiencies. Table 2
                 depicts a breakdown by MCIO of the number of cases with significant deficiencies that
                 were returned for possible correction.

                 Table 2. Cases with Significant Deficiencies
                                    Cases                           Total                 CID                  NCIS                 AFOSI
                     Returned                                         10                     6                    3                     1
                     Reopened                                           8                    4                    3                     1




                 	4	
                       The severity of the deficiencies depends in large part on the totality of the circumstances. What might be a minor
                       deficiency in one investigation could very well be a significant deficiency in another.




4 │ DODIG-2014-105
                                                                                             Findings



A “significant deficiency” is one or more deficiencies resulting from a material
failure(s) to conform to critical elements of DoD, Service, and MCIO policies and
procedures. A significant deficiency indicates a breakdown in practices, programs,
and/or policies having actual notable adverse impact on, or had a likelihood of
materially affecting, the integrity of the investigation and/or adversely affecting or
having a high probability of adversely affecting the outcome of an investigation.
If our evaluation identified one or more significant deficiencies within an
investigation, that investigation was returned to the relevant MCIO with an explanation
of the deficiency(ies) as well as the supporting guidance and/or policy(ies)
not followed.

Examples of significant deficiencies include, but are not limited to the following:

         •	 key evidence was not collected from the crime scene, the victim, or
            the subject;

         •	 crime scene examinations were not completed, not completed thoroughly,
            or not completed before the loss of crucial evidence;

         •	 sexual assault forensic examinations were not conducted;

         •	 witness interviews were not thorough or not conducted; and

         •	 subject and victim interviews or re-interviews were not thorough or
            not conducted.

We provided information on the 10 investigations with significant deficiencies to
the respective MCIOs. We asked the MCIOs to consider our findings and, where
practicable, reopen those cases to conduct additional investigative activity to address
deficiencies. In some instances, reopening the investigation would not be a prudent
use of investigative resources due to the length of time elapsed or judgment that
additional efforts would be futile.


Cases Returned to CID
We returned six cases to CID for consideration of our findings. On August 8, 2013,
CID agreed to reopen four of the six cases to conduct additional activity. CID
declined to pursue additional investigative activity for the two remaining cases
because they believed it would not alter the outcome of the case or too much time
had elapsed, causing the recommended investigative activity to be impracticable.
We agreed with CID’s assessment of the two remaining cases.




                                                                                      DODIG-2014-105 │ 5
Findings



                 Cases Returned to NCIS
                 We returned three cases to NCIS for consideration of our findings. On
                 September 26, 2013, NCIS agreed to reopen the returned cases to conduct
                 additional activity.


                 Cases Returned to AFOSI
                 We returned one case to AFOSI for consideration of our findings. On July 11, 2013,
                 AFOSI agreed to reopen the returned case to conduct additional activity.


                 Analysis of Investigative Deficiencies
                 We analyzed the combined data related to both minor and significant deficiencies
                 found in a total of 106 cases (96 with minor and 10 with significant deficiencies)
                 to identify and assess patterns and trends and make recommendations to improve
                 investigative quality. Our analysis disclosed five categories of deficiencies including:
                 1) interview and post-interview, 2) evidence, 3) crime scene documentation
                 and/or processing, 4) subject-focused actions, and 5) investigative coordination
                 and administrative deficiencies.


                 Interview and Post-Interview Deficiencies
                 In total, 78 of the 163 sample cases had interview and post-interview
                 deficiencies. We categorized them by subject, victim, and witness interview and
                 post-interview deficiencies to more efficiently analyze the results. Table 3 depicts
                 a breakdown by MCIO of the number of cases with interview deficiencies.

                 Table 3. Cases with Interview and Post-Interview Deficiencies

                               Total                            CID                             NCIS                           AFOSI
                                 78                              26                              34                              18


                 Subject Interview and Post-Interview Deficiencies
                 We found two areas affecting all three MCIOs related to the thoroughness of
                 subject interviews and post-interview actions, which when separated by MCIO, are
                 not indicative of patterns and trends; however are noteworthy: 1) Some subject
                 interviews were not thorough5 and did not address all of the elements of the

                 	5	
                       For this evaluation project, thoroughness is defined as obtaining basic facts and relevant information, to include elements
                       of the offense or pertinent information surrounding the matter being investigated, and identifying and following pertinent
                       investigative leads.




6 │ DODIG-2014-105
                                                                                         Findings



offense, and 2) investigators did not follow up on all logical leads stemming
from interviews. Table 4 depicts a breakdown by MCIO of the number of cases
with subject interview deficiencies.

Table 4. Subject Interview and Post-Interview Deficiencies
        Area of Concern           Total           CID        NCIS        AFOSI
 Subject interview was
 not thorough and did not              10           2          4            4
 address all the elements of
 the offense.
 Investigators did not follow
 up on logical leads stemming           8           1          3            4
 from interviews.


Victim Interview and Post-Interview Deficiencies
We separated victim interview and post-interview deficiencies into three areas
of concern:     1) the interview was not thorough, considering the circumstances of
the case and age of the victim, because pertinent information surrounding
the assault was omitted and could have been obtained by investigators, 2) logical
leads stemming from interviews were not developed or pursued, and 3) investigators
did not issue or document that they issued a DD Form 2701 to the victims or their
guardians. Additionally, we found 11 instances where NCIS investigators either did
not brief the victims or their guardians on the status and various aspects of the
investigations, or did not document that the briefs were conducted. We found
only one instance where CID either did not brief a victim as required, or did not
document the briefing in the case file. Unlike CID and NCIS, victim or guardian
briefings is not a policy requirement for AFOSI investigations. Table 5 depicts
a breakdown by MCIO of the number of cases with the identified deficiencies.

Table 5. Victim Interview and Post-Interview Deficiencies
        Area of Concern           Total           CID        NCIS        AFOSI
 Victim interview was                  11           3          5            3
 not thorough
 Logical leads stemming from
 interview were not developed          10           4          2            4
 or pursued.
 Victim or victim’s guardian
 was not issued a DD Form              36          18         11            7
 2701 (or the issuance was not
 documented as required).




                                                                                  DODIG-2014-105 │ 7
Findings



                 Witness Interview and Post-Interview Deficiencies
                 We separated witness interview and post-interview action deficiencies into two areas
                 of concern: 1) witnesses were identified but not interviewed, and the file contained
                 no documented explanation for why they were not interviewed and 2) canvass
                 interviews6 were not conducted when appropriate.7 Table 6 depicts a breakdown by
                 MCIO of the number of cases with the identified deficiencies.

                 Table 6. Witness Interview and Post-Interview Deficiencies
                           Area of Concern                        Total                  CID                  NCIS                 AFOSI
                     Witnesses were identified
                     but not interviewed, and the                    37                    7                    21                     9
                     file was not documented to
                     explain why.
                     Canvass interviews were                         17                    4                    10                     3
                     not conducted.


                 For the most part, these deficiencies were minor and did not adversely impact the
                 outcome of the investigation. Only eight instances (CID 4; NCIS 3; AFOSI 1) were
                 found in cases considered to be significantly deficient. Investigative thoroughness
                 demands pertinent investigative leads be followed. Absent some explanation of
                 why certain leads were not completed, i.e., perhaps related to most efficient use of
                 investigative resources that management and supporting legal counsel deemed
                 unnecessary (as they would result in cumulative unneeded evidence), case-reviewers
                 are left to ponder why investigators did not interview certain witnesses.

                 Additionally, we identified two witness-interviews with thoroughness deficiencies.
                 Although interview thoroughness could have an adverse effect on a case, our
                 evaluation indicates these two to be anomalous and not systemic deficiencies.


                 Evidence Deficiencies
                 Of the total cases (163) evaluated, there were 25 (15 percent) with evidence
                 deficiencies. We found 11 percent of CID’s cases (9 of 79), 19 percent of NCIS’ cases (10
                 of 54), and 20 percent of AFOSI’s cases (6 of 20) with evidence deficiencies. The
                 deficiencies included not collecting all items of physical evidence (for example,
                 clothing, bed linens, phone records, text message records) identified by subjects,
                 victims, or witnesses. The only item we consider to represent a pattern or trend
                 relates to the collection, and search of digital evidence identified by the subject(s),

                 	6	
                     Canvass interviews are interviews conducted in the immediate vicinity of a crime scene in an effort to identify witnesses or
                     information related to the matter being investigated.
                 	7	
                     See Appendix B for additional information on the areas of concern.




8 │ DODIG-2014-105
                                                                                                          Findings



suspect(s), victim(s), or witnesses during investigations that could have had
evidentiary value. This evidence was not collected in several instances by all
three MCIOs. Evidence deficiencies are never desirable; however, we consider the
remaining deficiencies to be anomalous and not indicative of patterns or trends
and the information is provided for transparency and MCIO action deemed
appropriate. Table 7 depicts a breakdown by MCIO of the 31 evidence deficiencies
among the 25 cases.

Table 7. Evidence Deficiencies
     Investigators did not:           Total              CID             NCIS             AFOSI
 Collect all items of clothing
 and bed linen evidence                   4               1                3                0
 identified by subject(s),
 victim(s), or witness(es).
 Collect sexual assault forensic
 examination evidence of                  3               1                0                2
 subject(s) or victim(s).
 Collect appropriate digital
 evidence identified by                 13                5                5                3
 subject(s), victim(s), or
 witness(es).
 Collect appropriate DNA
 sample from subject(s),
 suspect(s), victim(s), and               5               1                3                1
 witness(es) for evidence
 comparison.
 Submit appropriate computer
 and/or cell phone to                     6               1                3                2
 laboratory for examination.
Note: The disparity in the number of cases with evidence deficiencies and the total number of
deficiencies is due to some cases having multiple deficiencies.


Of   the    163    investigations,   19       (12   percent)   contained       evidence   collection
deficiencies. Among those 19 investigations, 4 investigations (CID 1 and NCIS 3)
involved investigators not collecting the victim’s, subject’s, or suspect’s clothing
and/or bed linen as recommended by MCIO policies. In 3 of the 4 cases that
clothing and/or bed linen was not obtained, the MCIO (CID 1 and NCIS 2) was notified
within 5 days of the assault. In the fourth instance, 10 days had elapsed before
NCIS was notified of the assault. Interestingly, CID with one deficiency, is the only
MCIO that mandates the collection of clothing worn by the victim or subject,
whereas, NCIS and AFOSI policies provide investigators some discretion regarding
the collection of subject’s and victim’s clothing. For AFOSI, this appears to be working
well as we noted no deficiencies in this category.




                                                                                                   DODIG-2014-105 │ 9
Findings



                 As previously mentioned, all three MCIOs had digital evidence collection
                 deficiencies. Additionally, we noted six cases in which agents did not submit
                 computers and/or cell phones they collected as evidence to the laboratory for
                 examination. This amounts to a total of 19 investigations with digital evidence
                 deficiencies. There is no overarching DoD or Military Service policy guidance related
                 to digital evidence collection. MCIO policies for digital evidence collection varied.
                 CID policy mandates the preservation and collection of digital evidence during the
                 course of criminal investigations. NCIS policy highlights agents should consider
                 computers and their related peripherals and media at crime scenes as potential
                 evidence. AFOSI policy contains a comprehensive list of digital evidence to consider
                 seizing in child sexual assault investigations.


                 Crime Scene Documentation and/or Processing Deficiencies
                 In      total,   33    cases      (20   percent)   had   crime    scene    documentation        and/or
                 processing deficiencies. We separated the crime scene documentation and/or
                 processing deficiencies into two areas of concern: 1) crime scene examination or
                 validation and 2) evidence collection at crime scenes. Crime scene validations are
                 less thorough examinations of a scene. These less thorough examinations may
                 be appropriate in an investigation when there is a delay in reporting to law
                 enforcement and collection of physical evidence may no longer be possible.
                 Validations normally consist of documenting observations, photographing, and
                 preparing rough sketches. Validations are important because they provide valuable
                 investigative information and assist during interviews. In addition, the documentation
                 from validations helps others understand how events occurred. Table 8 depicts
                 30 of 36 total deficiencies broken down by MCIO of the crime scene documentation
                 and/or processing deficiencies among the 33 cases.

                 Table 8. Crime Scene Documentation and/or Processing Deficiencies
                          Investigators did not:            Total           CID             NCIS             AFOSI
                      Examine or validate the                23               6               11                6
                      crime scene.
                      Collect potential evidence               7              3                2                2
                      from the scene.
                  Note: The disparity in the number of cases with crime scene documentation and/or processing
                  deficiencies and the total number of deficiencies is due to some cases having multiple deficiencies.
                  Table 8 represents 30 deficiencies in 33 cases.




10 │ DODIG-2014-105
                                                                                                Findings



The remaining six deficiencies relate to photographing a crime scene (2 deficiencies),
sketching a crime scene (3 deficiencies), and having documented authority to search
a crime scene (1 deficiency). Although these crime scene deficiencies could have
an adverse effect on a case, our evaluation indicates these deficiencies to be
anomalous and not a systemic issue.


Crime Scene Examination or Validation
As reflected in Table 8, investigators did not conduct crime scene examinations
or validations in 23 cases. In 11 investigations, the sexual assault was reported
within 4 days of the date of the incident and a crime scene should have been
available; however, the investigators did not conduct a crime scene examination
and did not attempt to collect physical evidence from the scene. In the remaining
12 cases, investigators could have responded to the scene(s) to validate them by
documenting observations, photographing the scene, and preparing sketches.

Only six CID investigations (8 percent) lacked crime scene examinations or
validations. CID policy requires agents to promptly examine a crime scene when
available in any CID investigation. Other than the six, documentation indicates CID
agents consistently completed crime scene examinations, thoroughly completed
documentation,     and    routinely   included   detailed    observations,   photographs,
and sketches.

A total of 11 NCIS investigations (20 percent) lacked a crime scene examination or
validation. NCIS policy regarding crime scene processing for sexual assault cases
uses the word “should” throughout its policy which is neither mandatory nor
directive in nature. As such, the lack of crime scene examinations or validations
did not violate NCIS policy.

A total of 6 AFOSI investigations (20 percent) lacked a crime scene examination
or validation. During the timeframe in which cases included in the scope of this
evaluation were investigated, AFOSI did not have policy guidance that required
crime   scene    examinations.    AFOSI   agents    relied   on   training   and   AFOSI
Manual (AFOSIMAN) 71-124, “Crime Scene Manual,” September 30, 2003, regarding
crime scene processing and evidence collection. AFOSIMAN 71-124 is a “how-to”
manual regarding searches, seizures, and evidence collection procedures, which was




                                                                                        DODIG-2014-105 │ 11
Findings



                 not regulatory in nature and does not specify when to conduct crime scene
                 examinations or validations. However, subsequent to the start of this evaluation,
                 AFOSI reissued AFOSIMAN 71-122, volume 1, “Criminal Investigations,” on
                 March 1, 2013, which directs “. . . all crime scenes are located and documented
                 (photographed/sketched). . . .” At the time these cases were investigated, the
                 processing and collection of crime scene evidence did not violate AFOSI policies.


                 Subject-Focused Action and Investigative Coordination
                 Administrative Deficiencies
                 We also noted some minor deviations from MCIO policy guidance that appear
                 to be anomalous in the areas of “subject-focused action deficiencies” related to the
                 improper release of subject(s)/suspect(s) to unit personnel, and the conduct of
                 criminal history checks on subject(s). Additionally, we noted some cases with minor
                 MCIO policy shortcomings in the areas of investigative coordination with forensic
                 science coordinators and documentation of supervisory reviews. See Appendix B
                 for details.


                 Demographic and Other Case Data
                 In addition to analyzing the cases for compliance with guiding policies, we gleaned
                 information related to various topics including alcohol use by the subject and
                 victim; age ranges; pay grades of subjects; where the offenses occurred; the
                 relationship, if any, between the subject and victim; the number and type of
                 primary offenses investigated; cases with multiple subjects and victims; and
                 disciplinary action, if any. We did not draw conclusions concerning the data.
                 The data are provided for information only and for possible future analysis if
                 compared to data gleaned from comparable statistical samples. See Appendix B
                 for details.

                 The primary offenses that occurred were rape of a child, aggravated sexual assault
                 of a child, aggravated sexual abuse of a child, aggravated sexual contact with a
                 child, abusive sexual contact with a child, and indecent liberties with a child.

                 The offenses occurred both on and off military installations, in a variety of settings,
                 such as family residences, daycare centers, hotels, and parks. In some instances,
                 the exact location where the offense occurred could not be determined.




12 │ DODIG-2014-105
                                                                                             Findings



We observed and documented the types of relationships between the subject and
the victim, to include determining the subject’s or the victim’s military affiliation.
We also analyzed a host of other victim- and subject-specific data such as age,
pay grade, and gender.

We also collected and analyzed the disciplinary action taken against the subjects
of the investigations. Disciplinary actions taken against the subjects included
court-martial, punitive discharge, administrative separations, civilian prosecution,
non-judicial punishment, reprimand, counseling, other actions, and no action taken.
See Appendix B, Tables B.30 to B.34, for details. We did not analyze whether the
action was appropriate. The propriety or appropriateness of disciplinary actions
taken by commanders, based on legal guidance, was not within the scope
of this evaluation.


Conclusions
A total of 153 of 163 (94 percent) MCIO investigations met investigative standards,
or had only minor deficiencies. A total of 57 of 163 cases (35 percent) had no
deficiencies, and 96 of 163 cases (59 percent) had only minor deficiencies.

A total of 10 of 163 cases (6 percent) had significant deficiencies including:

         •	 key evidence was not collected from the crime scene, the victim, or
            the subject;

         •	 crime scene examinations were not completed, not completed
            thoroughly, or not completed before the loss of crucial evidence;

         •	 victim was not medically examined;

         •	 witness interviews were not thorough or not conducted; and

         •	 subject and victim interviews or reinterviews were not thorough
            or not conducted.

We returned the cases with significant deficiencies to the MCIOs for resolution.


Initial Information for Victims and Witnesses of Crime
Of the 163 cases evaluated, 36 lacked documentation that agents issued a
DD Form 2701, “Initial Information for Victims and Witnesses of Crime,” to the
victims or to their appropriate family member or guardian. The DD Form 2701
provides victims and witnesses to a crime with an understanding of the military



                                                                                     DODIG-2014-105 │ 13
Findings



                 criminal justice process, actions to take in certain situations, a list of victim rights,
                 and contact information if more assistance is needed. DoDI 1030.2, “Victim and
                 Witness Assistance Procedures,” June 4, 2004, requires not only the issuance of
                 the form, but that the issuance be recorded as “evidence the officer notified the
                 victim or witness of his or her statutory rights.”


                 Interviews
                 In total, 100 of the 163 sample cases had interview and post-interview
                 deficiencies.  Improvement is needed in conducting and documenting thorough
                 interviews of victims, suspects, subjects, and witnesses.  A thorough interview
                 enables investigators to corroborate or refute the information obtained as well
                 as identify any logical investigative leads.


                 Collection of Evidence
                 We found several incidents where the MCIOs did not consistently collect digital
                 evidence, as required by their policies, such as cell phones or computers with
                 possible probative value that was identified by the victim(s), suspect(s), or subject(s)
                 during interviews. CID policy on digital evidence is not specific to child sexual
                 assault investigations, but does specify the preservation and collection of digital
                 evidence during the course of criminal investigations. NCIS does not have policy
                 that specifies the collection of digital evidence, but NCIS policy regarding evidence
                 collection states, “physical evidence may be defined as articles or material found in
                 an investigation which will assist in the solution of the crime and the prosecution
                 of the criminal.” NCIS is currently revising policy regarding the collection of
                 digital evidence. AFOSI policy is specific to child sexual assault investigations,
                 and contains a comprehensive list of digital media to consider collecting.

                 In all but four cases, the MCIOs identified and or collected the victim(s), suspect(s),
                 or subject(s) clothing as required by their individual policies. CID policy mandates
                 the collection of the subject’s and victim’s clothing worn during the assault, regardless
                 of its probative value. NCIS policy states that clothing of the victims and suspects
                 should be seized and processed as evidence. AFOSI policy directs investigators
                 to collect the victim(s) and subject(s) clothing in sexual assault investigations.
                 We acknowledge the MCIOs recent efforts to enhance their response to sexual
                 assault in the Department. Subsequent to the start of this project, CID published
                 CID Pamphlet 195-12, “Sex Assault Investigation Handbook,” April 23, 2013,
                 updating their requirement to collect clothing worn by the subjects or victims
                 immediately after the assault. NCIS is currently revising policy regarding the




14 │ DODIG-2014-105
                                                                                             Findings



collection of clothing worn by the victim, subject(s) or suspect(s). AFOSI also
updated   AFOSIMAN     71-124,   30   September    2003,   Paragraphs   5.1.1.5.   and
5.10.1., to further detail the requirement to collect clothing worn by the subject
and victim.


Crime Scene Examinations
We found crime scene documentation and/or processing deficiencies in 33 of 163
cases. Neither DoD nor the Military Services have policy to establish MCIO crime
scene documentation and/or processing requirements. As a result, the MCIOs
have differing crime scene examination policies. CID policy guidance on crime
scenes examinations is comprehensive and requires investigators to conduct
crime scene examinations, sketches and photographs. NCIS policy is ambiguous;
it neither requires an investigator to conduct a crime scene examination nor
complete a sketch, but does require photographs. AFOSI policy, at the time these
cases were investigated, did not require investigators to conduct crime scene
examinations, sketches, or photographs. However, as of March 1, 2013, subsequent
to the start of this project, AFOSI reissued AFOSIMAN 71-122, volume 1, which
now directs all crime scenes be located and documented (photographed and/or
sketched). With the exception of six cases, CID agents documented and processed
crime scenes as required by their guiding policies. Both NCIS and AFOSI had a
number of cases wherein, they did not document or process crime scenes.
Their policies at the time either did not establish requirements, or provided for
some agent discretion. Therefore, neither NCIS nor AFOSI violated their policies for
processing or documenting crime scene examinations at the time of this project.


Management Comments on the Report and
Our Response
CID Comments
CID challenged the accuracy and presentation of certain report information
especially the comingling of minor and significant deficiencies; however, the CID
Commander ultimately commented that CID is ready and willing to assist the DoD
IG in efforts to improve the quality of criminal investigations. CID remains committed
to ensuring the best possible support to the Army soldiers, civilians, and families.




                                                                                     DODIG-2014-105 │ 15
Findings



                 NCIS Comments
                 NCIS is currently updating policy and training to include child sexual assault in its
                 Advanced Family and Sexual Violence Training Program (AFSVTP), during which
                 investigators receive training from nationally recognized and DoD subject matter
                 experts. In response to this report, and evolving requirements identified within
                 the DoD Special Victim Capability program, NCIS will conduct a curriculum review
                 for the AFSVTP and include the recommendations from this report in future
                 AFSVTP courses and training.


                 AFOSI Comments
                 AFOSI is committed to developing and providing high-quality policy and training to
                 its special agents to ensure field units have the capability to conduct professional
                 investigations. AFOSI expressed appreciation for the value this assessment serves
                 in fostering discussions and necessary actions geared to maintain and improve
                 MCIO criminal investigators’ knowledge and skills.


                 Our Response
                 In response to the concerns expressed by CID, our Office of Audit Policy and
                 Oversight reviewed this final report and associated evidence for factual data
                 accuracy, fairness and objectivity for compliance with the CIGIE Inspection and
                 Evaluation reporting standard (See Appendix E for details). IPO made appropriate
                 report updates to ensure data accuracy, relevance, and objectivity.

                 We further acknowledge the concern expressed by the CID Commander regarding
                 the reporting of minor and significant deficiencies; however, we analyzed both to
                 identify patterns and trends to make recommendations that will result in improved
                 investigative quality. We value the MCIOs’ cooperation during this evaluation and
                 commend their efforts to improve child sexual assault investigations. We further
                 applaud the initiatives enacted by the NCIS and the AFOSI during this evaluation to
                 update training and policy to further enhance investigations of child sexual assault.




16 │ DODIG-2014-105
                                                                                                Findings



Recommendations, MCIO Comments, and
Our Response
Recommendation 1. Adequacy of Investigations
We recommend that the Director and Commanders of the Military Criminal
Investigative Organizations continue to emphasize thorough completion of all
child sexual assault investigations to ensure all investigations are completed as
required by DoD, Service, and command regulatory guidance.


CID Comments
The Commander, CID stated they “continue to” emphasize thorough investigations,
as “indicative of this MCIO’s 92 percent compliance rate.”


NCIS Comments
The Director of NCIS agreed and stated that it will continue to emphasize
thorough completion of all child sexual assault investigations as required by DoD,
Service, and NCIS regulatory guidance.


AFOSI Comments
AFOSI agreed and stated that AFOSI is committed to providing high-quality
investigative products to Air Force decision makers and will re-emphasize to its
field   personnel   and    staff   personnel   at   the   USAF   Special   Investigations
Academy (USAFSIA) during training the importance of conducting thorough,
complete investigations.


Our Response
After assessing CID’s comments, we revised our recommendation to include “continue
to” in the recommendation.

The comments are responsive. We recognize and applaud the MCIOs’ commitment to
timely and thorough child sexual assault investigations. It is clear the MCIOs understand
the impact that the quality of their child sexual assault investigations has on the
Department. No further comments are required.”




                                                                                        DODIG-2014-105 │ 17
Findings



                 Recommendation 2. Issuance of the DD Form 2701
                 We recommend that the Director and Commanders of the Military Criminal
                 Investigative Organizations implement measures to improve issuing and/or
                 recording the issuance of the DD Form 2701 to victims or their appropriate
                 family member or guardian.


                 CID Comments
                 The Commander of CID disagreed with the recommendation. CID commented that
                 we incorrectly assessed the findings, as we could not specify in our report that the
                 DD Forms 2701 were not issued, only that the issuance was not documented in the
                 case file. The Commander CID recommended we change the recommendation
                 to, implement measures to either improve the issuing of the DD Form 2701 or
                 the documentation of such issuances in case files.


                 NCIS Comments
                 NCIS agreed and stated NCIS is currently revising policy regarding child sexual
                 assault investigations. Included in the revision is specific guidance for the delivery
                 of the DD Form 270I to appropriate family members or guardians of child victims.


                 AFOSI Comments
                 AFOSI agreed and asserted that only 11 cases had DD Form 2701 deficiencies,
                 and of those 11 cases, a few were attributable to local law enforcement officials
                 interfacing with the respective victim, family member, or guardian, and not
                 AFOSI personnel.


                 Our Response
                 After assessing CID’s comments, we revised our recommendation to comport to
                 CID’s suggestion and included “improve issuing and/or recording the issuance of the
                 DD Form 2701 to victims or their appropriate family member or guardian.” As a
                 result of AFOSI comments, we revised our Finding.

                 The comments are responsive. We recognize NCIS’ efforts to revise current policy
                 to include specific guidance on issuing the DD Form 2701. No further comments
                 are required.




18 │ DODIG-2014-105
                                                                                                      Findings



Recommendation 3. Interviews
We recommended that the Director and Commanders of the Military Criminal
Investigative Organizations continue to place increased emphasis on interview
thoroughness, to include the pursuit of logical leads identified during the
interview, through continued training, supervision, and policy improvements.


CID Comments
CID agreed with the recommendation. CID commented that the thoroughness of
interviews will continue to be emphasized within their organization, highlighting
that less than seven percent of all significant and minor deficiencies identified in
the report were thoroughness deficiencies.


NCIS Comments
NCIS agreed and stated that NCIS will continue to emphasize interview thoroughness
and the pursuit of logical leads.


AFOSI Comments
AFOSI agreed and stated that in two of the five instances involving interviews as
not thorough, it was not AFOSI investigators that conducted those interviews, but
investigators from another agency. Headquarters AFOSI staff assessed two other
interviews deemed to be not thorough in our report and determined those
interviews were thoroughly conducted. AFOSI also expressed concern that we
evaluated child sexual assault victim interviews with the same set of parameters
as those for adult sexual assault interviews.

Additionally, AFOSI has increased training and the use of the Cognitive Interview
technique during basic and advanced training. Further, AFOSI agreed that victim
interviews   and    probative       investigative   activities   conducted   by   investigators
are important.


Our Response
The comments are responsive. We acknowledge AFOSI’s efforts to increase the use
of the Cognitive Interview technique during basic and advanced agent training.
We also acknowledge AFOSI agents were not solely responsible for some of the
interviews referenced as “not thorough” in the referenced cases as they were
investigated jointly with another agency and we have corrected our report.




                                                                                              DODIG-2014-105 │ 19
Findings



                 Regarding the two interviews judged by AFOSI as “thorough” that we assessed to
                 be “not thorough,” we reexamined the details of those two cases. In one case, the
                 interview was assessed as not thorough as the recorded interview of the victim
                 demonstrated the victim was of an appropriate age to articulate relevant facts,
                 was mature, and fully engaged during the interview, but was not asked pertinent
                 questions. In the remaining case, the victim was not asked about the clothing
                 worn during the assault. It is clear the MCIOs recognize the importance of child
                 interviews as highlighted by their high compliance rate in this category.
                 No further comments are required.


                 Recommendation 4. Collection of Evidence
                          a.	We recommended that the Director and Commanders of the Military
                             Criminal Investigative Organizations enhance guidance and increase
                             training to highlight the critical role that clothing and digital evidence
                             has in child sexual assault investigations and subsequent prosecutions.

                 CID Comments
                 CID agreed but contended that our evaluation did not identify errors related to
                 digital evidence collection.


                 NCIS Comments
                 NCIS agreed. NCIS is currently revising policy regarding child sexual assault
                 investigations and evidence collection procedures to include the identification and
                 collection of clothing, and digital, electronic, and storage evidence.


                 AFOSI Comments
                 AFOSI agreed. However, AFOSI commented that in some cases with deficiencies
                 pertaining to collection of digital evidence, it was either the responsibility of another
                 law enforcement agency or there was nothing in the facts or circumstances
                 indicating there was evidence on the devices; and therefore, no supporting legal
                 basis for obtaining the necessary search authority to seize the item(s). Moreover,
                 AFOSI commented that our assessment, which emphasizes the use of protocols,
                 did not allow for field judgments and it is not reasonable or practical to seize all
                 items of evidence for laboratory analysis. AFOSI stated that AFOSI forensic
                 specialists work with case agents to access the probative value of evidence on a
                 case-by-case basis.




20 │ DODIG-2014-105
                                                                                                     Findings



Our Response
The comments are responsive. We disagree with CID’s contention that our
evaluation did not identify errors related to digital evidence collection. Our
evaluation found digital evidence collection errors in five CID investigations that
were identified and reported in the draft report CID received (Table 7). We
appreciate the efforts by CID and NCIS to evaluate and enhance their existing policy
in this area. With regard to the investigations referenced by AFOSI as lacking a legal
basis for a search warrant, the evaluation of those investigations were void of
documented efforts relating to requesting consent searches. Pursuing consent
searches is a viable alternative to search authorizations and could have been
explored in the referenced investigations. Further, AFOSI’s assertion that our
assessment conveyed that AFOSI policy should embrace protocols that did not allow
for field judgments and/or decisions and collect all items of evidence regardless
of probative value is incorrect. Our report neither encourages nor discourages the
use of protocols. Further, we do not discourage the use of field judgments nor do
we advocate collecting all evidence regardless of probative value. Our assessments
and recommendations are tailored to each investigation based on the facts detailed
in the documents provided for the project. No further comments are required.

         b.	
           We     recommend       the    Commander,        United    States   Army    Criminal
            Investigation Command, and the Director, Naval Criminal Investigative
            Service,   evaluate      existing   policies   and      enhance   their   guidance
            regarding the collection of digital evidence including computers and
            other electronic media used by the subject(s), suspect(s), and when
            applicable, victim(s).

CID Comments
CID agreed but contended that our evaluation did not identify errors related to
digital evidence collection.


NCIS Comments
NCIS agreed and is currently revising policy regarding child sexual assault
investigations and evidence collection procedures to include the identification and
collection of clothing, and digital, electronic, and storage evidence.




                                                                                             DODIG-2014-105 │ 21
Findings



                 Our Response
                 CID and NCIS comments are responsive. We disagree with CID’s contention that
                 our evaluation did not identify errors related to digital evidence collection. Our
                 evaluation found digital evidence collection errors in five CID investigations, which
                 we highlighted in an earlier response to CID’s comments. We appreciate the efforts
                 by CID and NCIS to enhance their existing policies in this area. No further
                 comments are required.

                         c.	 We   recommend     the   Commander,     Air   Force   Office   of   Special
                            Investigations; implement measures to improve compliance with
                            existing policies regarding the collection of computers and other
                            digital media.

                 AFOSI Comments
                 AFOSI agreed. AFOSI will summarize the concerns identified in our assessment
                 and provide that information to USAFSIA to ensure appropriate emphasis during
                 training on the importance of evidence recognition and collection. However,
                 AFOSI questioned the basis for this recommendation pertaining only to AFOSI as
                 AFOSI figures did not appear to be greatly different than those for CID and NCIS.


                 Our Response
                 AFOSI comments are responsive. This recommendation pertained only to AFOSI
                 because we identified that although AFOSI has comprehensive policy on digital
                 evidence, AFOSI did not always comply with that policy. In Recommendation 4.b, CID
                 and NCIS were asked to evaluate their existing policies and enhance their guidance
                 regarding the collection of digital evidence, as their policies were not as specific or
                 as detailed as AFOSI’s. We commend AFOSI’s efforts to highlight the significance of
                 child sexual assault investigations through staff emphasis and training at the
                 USAFSIA. No further comments are required.




22 │ DODIG-2014-105
                                                                                             Findings



Recommendation 5. Crime Scene Validations
We recommend the Director, Naval Criminal Investigative Service improve guidance
and enhance supervision regarding responses to crime scenes.


NCIS Comments
NCIS agreed and is revising policy to include specific guidance for the identification
and collection of clothing, digital, and electronic storage evidence. The policy
revisions will also include an emphasis on crime scene response.


Our Response
NCIS comments are responsive. No further comments are required.




                                                                                     DODIG-2014-105 │ 23
Findings




                 Appendix A
                 Scope and Methodology
                 We conducted this evaluation from April 2013 through July 2013. Our work included
                 an evaluation of child sexual assault investigations completed (closed and adjudicated)
                 in 2012 for compliance with DoD, Military Service, and MCIO policy requirements
                 effective at the time of the investigation while noting observations and deficiencies.

                 We conducted the evaluation in accordance with the professional standards for
                 evaluation established by the Council of the Inspectors General for Integrity and
                 Efficiency. We believe that the evidence obtained provides a reasonable basis for our
                 observations and recommendations based on our objectives. We used professional
                 judgment in making observations and recommendations.

                 We evaluated the MCIOs’ child sexual assault investigative policy guidance to assess
                 the extent to which it addressed investigative activity expected to be conducted
                 in response to child sexual assault reports. We familiarized ourselves with tasks
                 expected in any child sexual assault investigation.

                 Our unique vantage point in assessing child sexual assault investigations across
                 the MCIOs permits us to identify both minor and significant deficiencies, and affords
                 us the opportunity to not only identify Department wide patterns, trends, and
                 best practices, but if applicable, provide the MCIOs with recommendations
                 for improvement, and or action(s) the MCIOs regard as appropriate or relevant.

                 At the onset of the evaluation, we sent a data call memorandum to each MCIO
                 requesting a listing of the sexual assault investigations with child victims which
                 were closed (completed and adjudicated) in 2012. The listings provided by the
                 MCIOs included the case numbers, dates the cases were opened and closed, the
                 numbers of subjects and victims in each case, the criminal offense investigated,
                 and the MCIO office where the investigation was conducted. The listings established
                 the population for this project. We worked with the DoD OIG Quantitative
                 Methods Division (QMD) to determine a simple random sample number of cases,
                 stratified by MCIO, to evaluate based on a desired level of reliability giving us our
                 sample size. The sample size was selected from the population using a
                 90-percent confidence level, 50-percent probability of occurrence at a 5-percent
                 precision   level.   Our   final   total   of   cases   to   evaluate   was   163   cases.




24 │ DODIG-2014-105
                                                                                                         Appendixes



The project of child sexual assault investigation was based on offenses defined in
the UCMJ 2008 and 2012 Editions, Articles 120 and 125 as listed in Tables A.1
through A.3. For this evaluation, a “child” is defined as a person younger than 16 years
of age based on UCMJ victim age specifications for the applicable offenses.
We also included the evaluation of investigations if applicable state laws
defined a child as a person younger than 17 years of age.

Table A.1. Article 120b Child Sexual Assault Offenses – UCMJ 2012 Edition
                                  Offense/Manual for Courts-Martial
 Rape of a child under 12
 Rape of a child over 12 but under 16
 Sexual assault of a child under 16
 Sexual abuse of a child under 16 (lewd act) (including any sexual contact with a child, indecent
 exposure to a child communicating indecent language to a child, and committing indecent conduct
 with or in the presence of a child)


Table A.2. Article 120 Child Sexual Assault Offenses – UCMJ 2008 Edition
                                  Offense/Manual for Courts-Martial
 Rape of a child (Article 120b)
 Aggravated sexual assault of a child under 12 (Article 120d)
 Aggravated sexual abuse of a child under 12 (Article 120f)
 Aggravated sexual contact with a child under 16 (Article 120g)
 Aggravated sexual assault of a child over 12 but under 16 (Article 120d)
 Aggravated sexual abuse of a child under 16 (Article 120f)
 Abusive sexual contact with a child under 16 (Article 120i)
 Indecent liberties with a child under 16 (120j)


Table A.3. Article 125 Child Sexual Assault Offenses – UCMJ 2008 Edition
                                  Offense/Manual for Courts-Martial
 Sodomy of a child under 12 (Article 125a(2))
 Sodomy of a child over 12 but under 16 (Article 125a(3))


We developed a child sexual assault case review protocol for each MCIO based on
DoD, Military Service, and each MCIO’s investigative policies and procedures.
The protocol addressed, in detail, all investigative steps required to complete
a thorough child sexual assault investigation ensuring compliance with applicable
DoD, Military Service, and MCIO policies that were in effect during the life of
the investigation.




                                                                                                    DODIG-2014-105 │ 25
Appendixes



                 In conducting the evaluation, we noted observations and deficiencies, both minor
                 and significant, found in the investigative files using the following definitions:

                 Observations. Observations are aspects of an investigation that the case reviewer
                 deemed warranted added attention and documentation. Observations may also be
                 administrative errors in a report or specific information the MCIOs requested we
                 look for during our case evaluations.

                 Minor Deficiency. A minor deficiency is a task or investigative step the MCIO did
                 not perform, or performed not in conformity with DoD, Service, and MCIO policies
                 and procedures. A minor deficiency is not likely to affect the outcome or have
                 a negative impact on the investigation.

                 Significant Deficiency. An investigation will be found to contain significant
                 deficiencies if one or more deficiencies result from a material failure(s) to
                 conform with critical elements of DoD, Service, and MCIO policies and procedures.
                 A significant deficiency indicates a breakdown in practices, programs, and/or
                 policies having actual notable adverse impact on, or had a likelihood of materially
                 affecting, the integrity of the investigation and/or adversely affecting or having
                 a high probability of adversely affecting the outcome of an investigation. The
                 procedure for documenting cases with significant deficiencies is addressed below.

                 Not all investigations with significant deficiencies warranted reopening. An example
                 of an investigation that should be reopened would be an investigation that failed
                 to fully identify and interview all potential victims. In this example, identifying and
                 interviewing additional victims may lead to subsequent prosecution of an offender.
                 The reopening of an investigation would not be expected or beneficial when the
                 MCIO did not conduct time-critical investigative steps or failed to conduct them
                 according to established policy. Examples include conducting telephonic subject
                 and victim interviews or failing to collect crucial evidence from a crime scene. These
                 investigative steps are time sensitive and the opportunity to complete these steps
                 cannot be replicated during the course of reopening an investigation. Although
                 not properly interviewing the victim and/or subject or collecting crucial evidence
                 has a significant impact and/or adverse outcome of the investigation, reopening
                 the investigation cannot overcome those errors.




26 │ DODIG-2014-105
                                                                                         Appendixes



At the conclusion of the case evaluation phase, the data collected and stored in the
protocol database was analyzed through the use of numerous queries that were built
to efficiently identify investigative tasks and steps that were not completed by some
or all of the MCIOs. The queries showed what tasks or steps were involved with
each deficiency and the number of instances of each.

Cases identified as containing possible significant deficiencies were documented
in a detailed work paper which recorded all deficiencies and observations
as identified by the evaluator. A peer review was completed wherein a second
evaluator reviewed the investigation and documented concurrence or nonoccurrence
with identified deficiencies. The Project Manager evaluated the deficiencies, the
applicable guidance identified, and documented their assessment. Upon completion
of the evaluator assessment, peer review, and Project Manager analysis, the work
paper was reviewed by the Project Director who determined final resolution of the
case file. If the case was determined to contain significant deficiencies, it was
returned to the MCIO for review and resolution. Upon completion of all the work
papers for a specific MCIO, a “Predraft Results Memo” was prepared that outlined
the tentative results of the evaluation. The Predraft Results Memo identified the
number of cases evaluated, number of cases identified with minor deficiencies, and
those identified with significant deficiencies. The memorandum and all approved
work papers were provided to the MCIO with a request to evaluate our assessment
of the significantly deficient investigations and provide comment. We updated
the protocol database to reflect the final outcome of the work paper when it was
determined to contain only minor deficiencies and/or observations. We will
evaluate subsequent investigative efforts upon closure of significantly deficient
investigations reopened as a result of our evaluation.

Subsequent to publishing the Draft Report, we provided the MCIOs a spreadsheet
listing of observations and all deficiencies, minor and significant. This allowed
them to review the minor deficiency findings and provide mitigating or extenuating
information if available. Through a series of conversations and discussions with the
MCIOs, we analyzed their responses to the minor deficiencies and made changes to the
database and report as appropriate.




                                                                                    DODIG-2014-105 │ 27
Appendixes




                 Appendix B
                 This Appendix provides a complete listing of case details, some of which is repetitive
                 of information contained in the report body. Such repetition is intentional to allow the
                 reader to review all data without having to refer between the report and this Appendix
                 to find associated information. The Appendix also contains interesting information
                 related to: use of intoxicants; offense locations; primary offenses involved; other case
                 information including cases with multiple subjects, multiple victims, non-stranger cases;
                 subject data including alcohol involvement, age, military affiliation, rank, punishment
                 information, and sex offender registration requirements; and victim information
                 including age, gender, relationship with subject and cooperation with law enforcement.


                 Case Details
                 On request, the MCIOs provided a list of 381 child sexual assault cases, which made
                 up our population. We, in turn, forwarded the list to the DoD OIG QMD. QMD
                 provides statistical computations and detailed analysis tailored to specific projects.
                 We asked QMD to provide a simple random sample of cases using a 90-percent
                 confidence level and a 5-percent precision rate. QMD randomly selected a sample
                 consisting of 163 cases (CID – 79, NCIS – 54, and AFOSI – 30) from the lists provided
                 by the MCIOs for evaluation. We provided each MCIO with a list of the randomly
                 selected cases, which the MCIOs made available to us. Of the 163 cases
                 evaluated, 57 cases were determined to have no investigative deficiencies
                 (reflected in Table B.1.).

                 We also obtained information such as alcohol use by the subject and victim,
                 their age ranges, pay grade, location where offense occurred, the relationship
                 between the subject/victim.


                 Case Deficiencies
                 Table B.1. Cases with No Investigative Deficiencies
                          Total                    CID                   NCIS               AFOSI
                           57                      39                    13                   5


                 Of the 163 cases evaluated, 106 cases (CID – 40, NCIS – 41, and AFOSI – 25)
                 contained either significant or minor investigative deficiencies. Investigative
                 deficiencies     were    broken    down    into   six   subcategories:   interview   and
                 post-interview deficiencies, evidence deficiencies, crime scene documentation




28 │ DODIG-2014-105
                                                                                          Appendixes



and processing deficiencies, subject-focused actions, investigative coordination/
notification, and documentation (investigative and administrative). The significance
of each deficiency noted depended on the impact the deficiency had on the
successful resolution of an investigation. Regardless of the category or total
number of deficiencies within an investigation, a case annotated as having a single
deficiency in any category was deemed deficient. Table B.2 depicts the cases with
investigative deficiencies.

Table B.2. Cases with Investigative Deficiencies
(Includes cases returned to the MCIOs)
         Total                   CID                   NCIS                 AFOSI
          106                    40                       41                    25


A total of 96 cases had one or more minor deficiencies but were nonetheless
determined to have met investigative standards. A “minor deficiency” is a task or
investigative step the MCIO did not perform, or performed not in conformity with
DoD, Service, and MCIO policies and procedures. A minor deficiency is not likely to
affect the outcome or have a negative impact on the investigation.

Examples of minor deficiencies include, but are not limited to the following:

         •	 delays in completing logical investigative steps,

         •	 appropriate medical records were not collected and reviewed,

         •	 victim (or parent or guardian) was not issued a DD Form 2701,
            “Initial Information for Victims and Witnesses of Crime,”

         •	 routine briefs to the victim (or parent or guardian) about the status
            of the investigation were not provided, and

         •	 fingerprints, mug photographs, and deoxyribonucleic acid (DNA) of
            subjects were not obtained.

Table B.2a depicts the breakdown by MCIO of cases.

Table B.2a. Cases with Minor Investigative Deficiencies
         Total                   CID                   NCIS                 AFOSI
          96                     34                       38                    24




                                                                                     DODIG-2014-105 │ 29
Appendixes



                 Of the 163 cases evaluated, 10 cases (CID – 6, NCIS – 3, and AFOSI – 1) had significant
                 deficiencies. A “significant deficiency” is one or more deficiencies resulting
                 from a material failure(s) to conform with critical elements of DoD, Service, and
                 MCIO policies and procedures. A significant deficiency indicates a breakdown in
                 practices, programs, and/or policies having actual notable adverse impact on,
                 or had a likelihood of materially affecting, the integrity of the investigation and/or
                 adversely affecting or having a high probability of adversely affecting the outcome
                 of an investigation. If our evaluation identified one or more significant deficiencies,
                 the investigation was returned to the MCIO with an explanation of the significant
                 deficiencies identified and the identification of the practices, programs, and/or policies
                 that were not adhered to.

                 Examples of significant deficiencies include, but are not limited to the following:

                             •	 key evidence was not collected from the crime scene, the victim, or
                                 the subject;

                             •	 crime scene examinations were not completed, not completed
                                 thoroughly, or not completed before the loss of crucial evidence;

                             •	 sexual assault forensic examinations were not conducted;

                             •	 witness interviews were not thorough or not conducted; and

                             •	 subject and victim interviews or reinterviews were not thorough or
                                 not conducted.

                 We returned 10 cases identified as being significantly deficient, along with
                 the documented deficiencies, to the respective MCIOs for consideration of
                 additional investigative activity if appropriate. As a result, 8 cases (CID – 4, NCIS – 3,
                 and AFOSI – 1) or 80 percent were reopened by the MCIOs to conduct
                 additional investigative activity. Table B.2b depicts data regarding cases returned
                 and reopened by the MCIOs.

                 Table B.2b. Cases with Significant Deficiencies
                            Cases Returned           Total           CID           NCIS         AFOSI
                            and Reopened
                      Returned                         10             6              3             1
                      Reopened                          8             4              3             1




30 │ DODIG-2014-105
                                                                                          Appendixes



Cases Returned to CID. We returned six cases to CID for consideration of our
findings. On August 8, 2013, CID agreed to reopen four of the six cases to conduct
additional activity. CID declined to pursue additional investigative activity in the
two remaining cases because they believed it would not alter the outcome of the
case or too much time had elapsed, causing the recommended investigative activity
to be impracticable. We agreed with CID’s assessment of the two remaining cases.

Cases Returned to NCIS. We returned three cases to NCIS for consideration of  our
findings. On September 26, 2013, NCIS agreed to reopen the returned cases to
conduct additional activity.

Cases Returned to AFOSI. We returned one case to AFOSI for consideration of our
findings. On July 11, 2013, AFOSI agreed to reopen the returned case to conduct
additional activity.

Table B.3 depicts the total number of investigations with interview and
post-interview deficiencies. Tables B.4 through B.6 depict interview deficiencies
categorized by subject, victim, and witness interviews in an effort to obtain a higher
degree of fidelity.

Table B.3. Cases with Interview and Post-Interview Deficiencies
         Total                  CID                   NCIS                AFOSI
           78                   26                     34                  18


Table B.4. Cases with Subject Interview and Post-Interview Deficiencies
         Total                  CID                   NCIS                AFOSI
           17                    2                      7                  8


Table B.5. Cases with Victim Interview and Post-Interview Deficiencies
         Total                  CID                   NCIS                AFOSI
           55                   26                     18                  11


Table B.6. Cases with Witness Interview and Post-Interview Deficiencies
         Total                  CID                   NCIS                AFOSI
           44                    8                     25                  11




                                                                                     DODIG-2014-105 │ 31
Appendixes



                 Tables B.7 through B.9 depict categories of subject, victim, and witness
                 interview deficiencies.

                 Table B.7. Categories of Subject Interview and Post-Interview Deficiencies
                                Deficiency                    Total          CID            NCIS               AFOSI
                      Subject interview was
                      not thorough and did not                 10             2                 4                 4
                      address all the elements of
                      the offense.
                      Investigators did not follow
                      up on logical leads stemming               8            1                 3                 4
                      from interviews.
                      Subject was not interviewed,
                      and the file was not                       1            0                 0                 1
                      documented explaining why.
                  Note: The disparity in the number of cases with subject interview and post-interview deficiencies
                  and the total number of deficiencies is due to some cases having multiple deficiencies.


                 We noted various deficiencies, which occurred during the subject interviews of the
                 evaluated investigations. Based on the dynamics involved in subject interviews,
                 we recognize there may have been reasons these logical investigative steps were
                 not       conducted.        However,   the     evaluated   cases   did   not        contain   supporting
                 documentation explaining why the subjects were not interviewed nor did they
                 indicate the reasons that all logical information was not addressed.

                 Table B.8. Victim Interview and Post-Interview Deficiencies
                                Deficiency                    Total          CID           NCIS                AFOSI
                      Victim interview was                     11             3                 5                 3
                      not thorough
                      Logical leads stemming from
                      interview were not developed             10             4                 2                 4
                      or pursued.
                      Information provided by                    2            1                 1                 0
                      victim was not corroborated.
                      Multidisciplinary concept was              6            1                 3                 2
                      not used.
                      Victim or victim’s guardian
                      was not issued a DD Form                 36            18                 11                7
                      2701 (or the issuance was not
                      documented as required).
                      Routine/recurring victim
                      briefs were not conducted in
                      accordance with (IAW) MCIO               11             1                 10              N/A
                      policy, or they were
                      not documented.
                  Note: The disparity in the number of cases with victim interview and post-interview deficiencies and
                  the total number of deficiencies is due to some cases having multiple deficiencies.



32 │ DODIG-2014-105
                                                                                                         Appendixes



Table B.9. Witness Interview and Post-Interview Deficiencies
           Deficiency                    Total           CID             NCIS               AFOSI
 Witnesses were identified
 but not interviewed, and the             37               7              21                  9
 file was not documented to
 explain why.
 Canvass interviews were                  17               4              10                  3
 not conducted.
 Witness interview was                      2              1                1                 0
 not thorough.
Note: The disparity in the number of cases with witness interview and post-interview deficiencies
and the total number of deficiencies is due to some cases having multiple deficiencies.


Table B.10 depicts the total number of cases that contained evidence deficiencies.

Table B.10. Cases with Evidence Deficiencies
          Total                     CID                        NCIS                  AFOSI
           25                        9                         10                       6


Table B.11 depicts a breakdown of evidence deficiencies.
Table B.11. Evidence Deficiencies
     Investigators did not:              Total           CID             NCIS               AFOSI
 Collect all items of clothing
 and bed linen evidence                     4              1                3                 0
 identified by subject(s),
 victim(s), or witness(es).
 Collect sexual assault forensic
 examination evidence of                    3              1                0                 2
 subject(s) or victim(s).
 Collect appropriate digital
 evidence identified by                   13               5                5                 3
 subject(s), victim(s),
 or witness(es).
 Collect appropriate DNA
 sample from subject(s),
 suspect(s), victim(s),                     5              1                3                 1
 and witness(es) for
 evidence comparison.
 Submit appropriate computer
 and/or cell phone to                       6              1                3                 2
 laboratory for examination.
Note: The disparity in the number of cases with evidence deficiencies and the total number of
deficiencies is due to some cases having multiple deficiencies.




                                                                                                    DODIG-2014-105 │ 33
Appendixes



                 Table B.12 depicts the total number of cases that contained crime scene
                 documentation and/or processing deficiencies.

                 Table B.12. Cases with Crime Scene Documentation and/or Processing Deficiencies
                              Total                     CID                     NCIS                   AFOSI
                                33                      12                      13                       8


                 Table        B.13    depicts      a   breakdown    of   crime         scene    documentation        and
                 processing deficiencies.

                 Table B.13. Crime Scene Documentation and Processing Deficiencies
                          Investigators did not:          Total           CID                  NCIS          AFOSI
                      Examine or validate the crime           23            6                   11             6
                      scene.
                      Have documented authority               1             1                    0             0
                      to search the scene.
                      Photograph the scene.                   2             0                    1             1
                      Sketch the scene.                       3             3                  N/A           N/A
                      Collect potential evidence              7             3                    2             2
                      from the scene.
                  Note: The disparity in the number of cases with evidence deficiencies and the total number of
                  deficiencies is due to some cases having multiple deficiencies.


                 Table B.14 depicts a breakdown of subject-focused action deficiencies.

                 Table B.14. Cases with Subject-Focused Action Deficiencies
                          Investigators did not:          Total           CID                  NCIS          AFOSI
                      Comply with guidance
                      regarding the release of                 8            4                    4             0
                      subject(s)/suspect(s) to
                      unit personnel.
                      Conduct criminal history                 4            2                    2             0
                      records checks on subject(s).




34 │ DODIG-2014-105
                                                                                             Appendixes



Table B.15 depicts a breakdown of specific deficiencies for the area of investigative
coordination and administrative documentation.

Table B.15. Cases with Investigative Coordination and Administrative Deficiencies
           Deficiency              Total           CID           NCIS          AFOSI
 Investigators did not
 immediately coordinate/notify        4            N/A           N/A                4
 forensic science consultant.
 Required supervisory reviews         3              0             3                0
 were not documented.
 Review/inclusion of other law
 enforcement agency’s report          2              0             1                1
 was not documented.
 Location of offense was not
 fully identified.                    2              0             1                1




Intoxicant Use
We identified the following details regarding intoxicant use (alcohol and/or drug) in
the evaluated investigations.

           •	 In 10 of the 163 cases evaluated, the subject was determined to have
             consumed alcohol and/or an over-the counter drug prior to the
             commission of the offense.

           •	 In 3 of the 163 cases evaluated, the victim was determined to have
             consumed alcohol and/or an illicit drug.

           •	 In 1 case, both the victim and the subject ingested alcohol prior to the
             commission of a sexual assault.

Table B.16 depicts the total number of cases where the subject(s) was or was
not under the influence of alcohol and/or drugs. The table also shows, where
applicable, the type of intoxicant the subject(s) used.

Table B.16. Cases with Subject Alcohol and/or Drug Use
            Intoxicant             Total           CID           NCIS          AFOSI
 Alcohol                              8              2             2                4
 Alcohol and                          1              0             0                1
 over-the-counter drug
 Over-the-counter drug                1              1             0                0




                                                                                        DODIG-2014-105 │ 35
Appendixes



                                 Intoxicant                Total          CID             NCIS               AFOSI
                      Unknown/undetermined*                 53             24               16                 13
                      None                                  67             31               24                 12
                      Not applicable                        33             21               12                  0
                  *Alcohol and/or drug use by the subject(s) in 53 investigations could not be determined because the
                   information about such use was not available in the case files.


                 Table B.17 depicts the total number of cases in which the victim(s) was under the
                 influence of alcohol and/or drugs. In each case in which a victim was reported to
                 have consumed alcohol or drugs, the consumption was voluntary and the victim
                 was between the ages of 14 and 17. The table also shows, where applicable, the type
                 of intoxicant the victim(s) used.

                 Table B.17. Cases with Voluntary Victim Alcohol and/or Drug Use
                             Voluntary Alcohol             Total          CID             NCIS               AFOSI
                                or Drug Use
                      Alcohol                                 2             2                0                  0
                      Alcohol with illicit drug               1             1                0                  0
                      Unknown/undetermined*                 18              9                3                  6
                      None                                 138             67               48                 23
                      Not applicable                          4             0                3                  1
                  *Alcohol and/or drug use by the victim(s) in 18 investigations could not be determined because the
                   information about such use was not available in the case files.


                 Table B.18 depicts the total number of cases in which both the subject(s) and
                 victim(s) were under the influence of alcohol and/or drugs.

                 Table B.18. Cases with Alcohol and/or Drug Use by Both Subject and Victim
                                Total                CID                        NCIS                   AFOSI
                                 1                     1                         0                       0



                 Offense Location
                 The majority of sexual assault incidents (96 of 163 or 59 percent) occurred on a
                 military installation, while 51 of 163 (31 percent) occurred outside of a military
                 installation. Many occurred in a residence/home (112 of 163 or 69 percent).




36 │ DODIG-2014-105
                                                                                                            Appendixes



These numbers indicate the majority of sexual assaults against children occur
in an environment familiar to the subject or victim. Tables B.19 and B.20 provide
details regarding offense location data.

Table B.19 depicts the number of cases where the crime occurred on or off
the installation.

Table B.19. Cases Where the Sexual Assault Occurred On/Off the Installation
               Location                Total             CID             NCIS             AFOSI
 On installation                         97              60                32                5
 Off installation                        51              14                13               24
 Unknown                                 15                5                9                1


Table B.20 depicts where the sexual assault took place.

Table B.20. Where the Sexual Assault Occurred
               Category                Total             CID             NCIS             AFOSI
 Barracks/dorm                            5                2                3                0
 Daycare or child                         2                2                0                0
 development center
 Government vehicle                       1                0                1                0
 Hotel/motel                              4                0                1                3
 Office/workplace                         1                0                0                1
 Park/beach                               3                2                0                1
 Parking lot                              3                2                1                0
 Prison/brig                              1                0                1*               0
 Private vehicle                          3                3                0                0
 Residence/home                        112               56                35               21
 Retail store                             1                0                1                0
 School                                   4                3                1                0
 Swimming pool                            2                1                1                0
 Wooded/open area                         4                2                1                1
 Unidentified                            17                6                8                3
*The subject in this instance was a prison inmate who wrote a letter to a female under the age of 16
 in an effort to entice her into committing future sexual acts with him.




                                                                                                       DODIG-2014-105 │ 37
Appendixes



                 Primary Offense
                 Although several offenses may have been investigated and/or charged, we
                 documented only the primary offense investigated. Table B.21 depicts number of
                 cases by type of offense investigated.

                 Table B.21. Primary Offense Investigated
                                 Offense                Total   CID      NCIS         AFOSI
                      Abusive sexual contact with        15      3        10            2
                      a child
                      Aggravated sexual abuse of         12      6         3            3
                      a child under 12
                      Aggravated sexual abuse of           9     9         0            0
                      a child 12 to under 16
                      Aggravated sexual assault of       11      4         6            1
                      a child under 12
                      Aggravated sexual assault of         4     1         1            2
                      a child under 12 (attempted)
                      Aggravated sexual assault of       30     15         9            6
                      a child 12 to under 16
                      Aggravated sexual assault
                      of a child 12 to under 16            2     0         2            0
                      (attempted)
                      Aggravated sexual contact          16      4         8            4
                      with a child under 12
                      Aggravated sexual contact          17     10         3            4
                      with a child 12 to under 16
                      Indecent liberties with a child    18      6         7            5
                      Rape of a child under 12           17     14         3            0
                      Rape of a child under 12             1     0         1            0
                      (attempted)
                      Rape of a child 12 to under 16       9     6         0            3
                      Sodomy of a child under 12           1     1         0            0
                      Sodomy of a child 12 to              1     0         1            0
                      under 16
                      Total                             163     79        54           30




38 │ DODIG-2014-105
                                                                                                   Appendixes



Table B.22 depicts the number of cases that involved multiple subjects.

Table B.22. Cases with Multiple Subjects
          Total                     CID                       NCIS                    AFOSI
            7                         5                        0                       2


Table B.23 depicts the number of cases that involved multiple victims.

Table B.23. Cases with Multiple Victims
          Total                     CID                       NCIS                    AFOSI
           27                        17                        6                       4


Table B.24 depicts the number of cases that involved multiple subjects and
multiple victims.

Table B.24. Cases with Multiple Subjects and Multiple Victims
          Total                     CID                       NCIS                    AFOSI
            3                         3                        0                       0


Table B.25 depicts the number of cases in which the victim(s) knew or had a
relationship with the subject(s) prior to the sexual assault.

Table B.25. Cases in Which Victim Knew Subject
          Total                     CID                       NCIS                    AFOSI
          145                        68                        49                      28
Note: At table B.38 is a detailed breakdown of the subject-to-victim relationships.


We identified the following details regarding the subject-to-victim relationship in the
evaluated investigations.

          •	 67 of 163 investigations, the subject(s) was a family member (father,
             step-father, brother, half-brother, step-brother, brother-in-law, or mother)
             of the victim(s).

          •	 91 of 163 investigations, the subject(s) was not a family member of
             the victim.

          •	 5 of 163 investigations, no person was listed as a victim; therefore,
             the relationship information is not applicable.




                                                                                              DODIG-2014-105 │ 39
Appendixes



                 We noted 7 of 163 cases with multiple subjects and 27 cases with multiple
                 victims. In these instances, the cases identified two or more subjects as
                 perpetrating the offense under investigation, or in the circumstance of the victims,
                 the case listed two or more victims being victimized in an individual investigation.
                 We also noted 33 of the 163 cases had no subject because the cases were either
                 unfounded or there was insufficient evidence to prove or disprove a crime occurred.
                 In five investigations, no victim was identified. In these cases, subjects were
                 attempting to commit crimes with children by communicating with persons
                 they   believed   to   be   children.    The    intended   victims    were   actually   law
                 enforcement officials posing as children. As a result, a total of 138 subjects and 201
                 victims (individuals) were identified.

                 We noted the following highlights of the 138 subjects in the evaluated investigations.

                          •	 Of the 138 subjects, 10 (7 percent) consumed alcohol prior to the
                             commission of a sexual assault.

                          •	 The majority of subjects ranged in ages from 18 to 23 (37 of 138 or
                             27 percent) and 24 to 29 years old (37 of 138 or 27 percent).

                          •	 Of the 138 subjects, 18 (13 percent) were juveniles.

                 Of the 138 subjects, 94 (68 percent) were military personnel. The majority were
                 enlisted members (90 of 138 or 65 percent) with E-4s (24 of 138 or 17 percent)
                 and E-5s (22 of 138 or 16 percent) comprising the largest pool of subjects. Although
                 a limited number of commissioned officers perpetrated child sexual assaults, all
                 of the subjects in the commissioned officers corps (4 out of 138 or 3 percent) were
                 junior officers in the grades of O-1 through O-3 (company-grade officers).

                 Of the 138 subjects, 68 (49 percent) received no punishment (adverse action taken
                 against them) as a result of the investigation; 2 (1 percent) received nonjudicial
                 punishment; and 38 (28 percent) were convicted by courts-martial or civilian
                 courts. Action against seven (5 percent) subjects was not applicable because they
                 were listed as unknown in the investigations.

                 The following tables (B.26-B.39) address individual subjects and victims and not
                 the number of cases. Therefore, the numbers noted will exceed the number of cases
                 evaluated. This is due to the number of cases with multiple subjects and victims.
                 There were a total of 138 subjects and 201 victims in the 163 cases we evaluated.
                 These tables are statistical in nature and contain no deficiencies.




40 │ DODIG-2014-105
                                                                                      Appendixes



Table B.26 depicts the number of subjects that were under the influence of alcohol
and/or drugs. The table also shows, where applicable, the type of intoxicant the
subject(s) used.

Table B.26. Subjects Alcohol and/or Drug Involvement
            Category:               Total            CID   NCIS         AFOSI
 Alcohol                               9              3      2             4
 Alcohol with over-the-counter         1              0      0             1
 drug
 Over-the-counter drug                 1              1      0             0
 Unknown/undetermined                 62             31     18            13
 None                                 65             30     22            13


Table B.27 depicts the age ranges of each subject.

Table B.27. Age Range of Subjects
            Category:               Total            CID   NCIS         AFOSI
 12-13                                 3              1      2             0
 14-15                                 9              7      2             0
 16-17                                 6              4      2             0
 18-23                                37             19     14             4
 24-29                                37             15     12            10
 30-35                                25             13      3             9
 36-40                                 9              1      3             5
 41-45                                 2              1      0             1
 46-50                                 1              0      0             1
 51-55                                 1              0      1             0
 Over 55                               1              0      0             1
 Unknown                               7              4      3             0


Table B.28 depicts the subject’s affiliation.

Table B.28. Subject’s Affiliation
            Category:               Total            CID   NCIS         AFOSI
 Military                             94             37     28            29
 Civilian                             37             24     11             2
 Unknown                               7              4      3             0




                                                                                 DODIG-2014-105 │ 41
Appendixes



                 Table B.29 depicts the military subject’s pay grade.

                 Table B.29. Military Subject’s Pay Grade
                                Category:           Total           CID     NCIS   AFOSI
                      E-1                              1                0     1      0
                      E-2                              5                2     3      0
                      E-3                            16                 5     7      4
                      E-4                            24             15        6      3
                      Junior Enlisted                46             22       17      7
                      E-5                            22                 8     6      8
                      E-6                            11                 3     3      5
                      NCO                            33             11        9     13
                      E-7                              8                3     1      4
                      E-8                              3                1     1      1
                      E-9                              0                0     0      0
                      Senior NCO                     11                 4     2      5
                      Total Enlisted                 90             37       28     25
                      Warrant Grade                    0                0     0      0
                      O-1                              1                0     0      1
                      O-2                              0                0     0      0
                      O-3                              3                0     0      3
                      Company Grade                    4                0     0      4
                      Field Grade                      0                0     0      0
                      Flag Officer                     0                0     0      0
                      Total Officer                    4                0     0      4
                      Military Total                 94             37       28     29




42 │ DODIG-2014-105
                                                                                                             Appendixes



Table B.30 depicts the action that was taken on the subjects of the investigations.

Table B.30. Action Taken Against Subjects
               Category:                  Total             CID              NCIS             AFOSI
    Convicted by trial for sexual           38               14                14               10
    assault offenses
    Convicted by trial for lesser            7                2                 3                 2
    non sexual assault offenses
    Acquitted by trial                       2                0                 1                 1
    Discharged from service in               5                5                 0                 0
    lieu of trial
    Nonjudicial (Article 15)                 1                0                 0                 1
    Nonjudicial and discharged               1                1                 0                 0
    Reprimand/counseling                     4                1                 0                 3
    Unknown1                                 5                1                 2                 2
    No action taken 2
                                            68               37                19               12
    Not applicable                           7                4                 3                 0
    (unknown subjects)
    Totals                                 138               65                42               31
1
    For five investigations that the MCIOs categorized as being closed, no disciplinary action
    information was available.
2
    It is the decision of the subject’s action commander or civilian prosecutor to determine if there
    is sufficient evidence to warrant the taking of punitive action against the subject. Additional
    information about the cases with no action taken is provided at tables B.33 and B.34.


Table B.31 depicts the court directed action that was taken against military subjects
convicted of sexual assault offenses. Of the 38 subjects convicted by trial for sexual
offenses, 31 were active duty military. Of the 31 military subjects convicted, 26  were
tried by courts-martial and 5 were tried by civilian courts. The majority of the
convicted military subjects received multiple types of punishment; therefore,
cumulative totals will exceed the total number of convicted military subjects.

Table B.31. Action Taken Against Convicted Military Subjects
               Category:                  Total             CID              NCIS             AFOSI
    Confinement                             27               10                10                 7
    Fines and forfeitures                   19                8                 6                 5
    Reduction in rank                       20                9                 7                 4
    Dishonorable discharge                  11                5                 3                 3
    Bad conduct discharge                   10                4                 5                 1




                                                                                                        DODIG-2014-105 │ 43
Appendixes



                 Table B.32 depicts the court-directed action that was taken against civilian
                 subjects convicted of sexual assault offenses. Of the 38 subjects convicted by trial
                 for sexual offenses, 7 were civilians tried by civilian courts. The majority of the
                 convicted civilians received multiple types of punishment; therefore, cumulative
                 totals will exceed the total number of convicted civilian subjects.

                 Table B.32. Action Taken Against Convicted Civilian Subjects
                                 Category:               Total             CID              NCIS             AFOSI
                      Confinement                           6                3                 2                1
                      Parole after confinement              2                2                 0                0
                      Probation (no confinement)            1                0                 1                0
                      Fines and forfeitures                 1                1                 0                0


                 Table B.33 depicts the numbers of military and civilian subjects in which no action
                 was taken against them.

                 Table B.33. No Action Taken Against Military and Civilian Subjects
                                 Category:               Total             CID              NCIS             AFOSI
                      Military                             42               17                13               12
                      Civilian                             26               20                 6                0
                      Totals                               68               37                19               12


                 Table B.34 depicts the status of the cases at the time of closure when no action was
                 taken against the subjects.

                 Table B.34. Case Status at Closure When No Action Taken Against Subjects
                                 Category:               Total             CID              NCIS             AFOSI
                      Insufficient evidence                 7                4                 3                0
                      Unresolved/unfounded                  8                7                 0                1
                      Resolved/solved*                     53               26                16               11
                      Totals                               68               37                19               12
                  *Cases that are closed as resolved/solved are often closed indicating there is probable cause to
                   believe a subject committed the investigated crime. It is the decision of the subject’s action
                   commander or a civilian prosecutor to determine if there is sufficient evidence to warrant the
                   taking of punitive action against the subject.




44 │ DODIG-2014-105
                                                                                            Appendixes



Table B.35 depicts the number of subjects ordered to register as sex offenders as
a result of their conviction.

Table B.35. Subjects Ordered to Register as Sex Offenders
            Category:               Total          CID          NCIS          AFOSI
 Ordered to register                 29             8            11            10


We noted the following highlights of the 201 victims in the evaluated investigations.

           •	 The majority of victims, 63 of 201 (31 percent), ranged in age from
             14 to 15. The second largest group of victims (51 or 25 percent), were
             between 2 and 5 years old.

           •	 Of the 201 victims, 166 (83 percent) were female and 35 (17 percent)
             were male.

           •	 Unlike in cases of sexual assaults against adult victims, we found alcohol
             and drug use to be rare in cases of sexual assaults against child
             victims. Of the 201 victims identified in this project, 3 victims consumed
             alcohol and 1 consumed alcohol with an illicit drug. These 4 victims
             ranged in age from 14 to 17. All four victims voluntarily consumed
             the intoxicating substance(s).

Table B.36 depicts the age ranges of each victim. Although there were 201 victims
listed in the cases we evaluated, 5 were victimized while they were in 2 different age
groups and 4 were victimized while they were in 3 different age groups.
Five victims were in the age range category of 16 to 17. Three of these victims
were involved in cases with other victims who were children, one was victimized
while also in the age group category of 14 to 15, and one was included in this
project because the state where the crime occurred specified a child as being a
person under the age of 17.

Table B.36. Age Range of Victims
            Category:               Total          CID          NCIS          AFOSI
 Under 2                               2            1             1             0
 2-5                                 51            31            13             7
 6-9                                 46            28            12             6
 10-11                               22            12             8             2
 12-13                               25            16             4             5
 14-15                               63            29            19            15
 16-17                                 5            1             1             3


                                                                                       DODIG-2014-105 │ 45
Appendixes



                 Table B.37 depicts the gender of the victims.
                 Table B.37. Victim’s Gender
                                  Category:           Total         CID           NCIS        AFOSI
                      Male                             35            18             9            8
                      Female                          166            90            48           28

                 Table B.38 depicts the subject-to-victim relationship type.
                 Table B.38. Subject-to-Victim Relationship Type
                                  Category:           Total         CID           NCIS        AFOSI
                      Boyfriend                          3            1             2            0
                      Boyfriend of mother                3            1             2            0
                      Brother                            3            2             1            0
                      Brother (half, in-law, step)     14             5             7            2
                      Caregiver                          2            1             1            0
                      Classmate                          3            3             0            0
                      Clergy                             1            0             0            1
                      Cousin                             3            1             1            1
                      Father                           43            24             6           13
                      Father (step)                    33            26             2            5
                      Friend/acquaintance of victim    56            23            20           13
                      Friend/acquaintance of a         17             9             8            0
                      family member of victim
                      Grandfather                        2            0             2            0
                      Girlfriend of a relative           1            0             0            1
                      Mother                             1            0             1            0
                      Stranger                           3            1             2            0
                      Teacher                            1            1             0            0
                      Uncle                              1            0             1            0
                      No relationship or               11            10             1            0
                      not applicable

                 Table B.39 depicts the number of victims that were cooperative during the investigation.
                 Table B.39. Victim Cooperation
                                  Category:           Total         CID           NCIS        AFOSI
                      Yes                             187            99            55           33
                      No                               14             9             2            3

                  See Appendix D for a complete listing of all tables provided.


46 │ DODIG-2014-105
                             Appendixes




Appendix C
Memorandum of Results




                        DODIG-2014-105 │ 47
Appendixes



                 Memorandum of Results (cont’d)




48 │ DODIG-2014-105
                                                                                                    Appendixes




Appendix D
Table Listing
Table 1. Cases with No Deficiencies or Minor Deficiencies___________________________________4
Table 2. Cases with Significant Deficiencies___________________________________________________4
Table 3. Cases with Interview and Post-Interview Deficiencies_____________________________6
Table 4. Subject Interview and Post-Interview Deficiencies_________________________________7
Table 5. Victim Interview and Post-Interview Deficiencies__________________________________7
Table 6. Witness Interview and Post-Interview Deficiencies________________________________8
Table 7. Evidence Deficiencies__________________________________________________________________9
Table 8. Crime Scene Documentation and/or Processing Deficiencies____________________ 10
Table A.1. Article 120b Child Sexual Assault Offenses – UCMJ 2012 Edition______________ 25
Table A.2. Article 120 Child Sexual Assault Offenses – UCMJ 2008 Edition_______________ 25
Table A.3. Article 125 Child Sexual Assault Offenses – UCMJ 2008 Edition_______________ 25
Table B.1. Cases with No Investigative Deficiencies_ _______________________________________ 28
Table B.2. Cases with Investigative Deficiencies____________________________________________ 29
Table B.2a. Cases with Minor Investigative Deficiencies___________________________________ 29
Table B.2b. Cases with Significant Deficiencies_____________________________________________ 30
Table B.3. Cases with Interview and Post-Interview Deficiencies__________________________ 31
Table B.4. Cases with Subject Interview and Post-Interview Deficiencies________________ 31
Table B.5. Cases with Victim Interview and Post-Interview Deficiencies_________________ 31
Table B.6. Cases with Witness Interview and Post-Interview Deficiencies_______________ 31
Table B.7. Categories of Subject Interview and Post-Interview Deficiencies_____________ 32
Table B.8. Victim Interview and Post-Interview Deficiencies______________________________ 32
Table B.9. Witness Interview and Post-Interview Deficiencies____________________________ 33
Table B.10. Cases with Evidence Deficiencies_______________________________________________ 33
Table B.11. Evidence Deficiencies____________________________________________________________ 33
Table B.12. Cases with Crime Scene Documentation and/or
   Processing Deficiencies___________________________________________________________________ 34
Table B.13. Crime Scene Documentation and Processing Deficiencies____________________ 34
Table B.14. Cases with Subject-Focused Action Deficiencies_______________________________ 34




                                                                                               DODIG-2014-105 │ 49
Appendixes



                 Table Listing (cont’d)
                 Table B.15. Cases with Investigative Coordination and
                    Administrative Deficiencies_______________________________________________________________ 35
                 Table B.16. Cases with Subject Alcohol and/or Drug Use__________________________________ 35
                 Table B.17. Cases with Voluntary Victim Alcohol and/or Drug Use_______________________ 36
                 Table B.18. Cases with Alcohol and/or Drug Use by Both Subject and Victim____________ 36
                 Table B.19. Cases Where the Sexual Assault Occurred On/Off the Installation___________ 37
                 Table B.20. Where the Sexual Assault Occurred_ ___________________________________________ 37
                 Table B.21. Primary Offense Investigated___________________________________________________ 38
                 Table B.22. Cases with Multiple Subjects____________________________________________________ 39
                 Table B.23. Cases with Multiple Victims_____________________________________________________ 39
                 Table B.24. Cases with Multiple Subjects and Multiple Victims____________________________ 39
                 Table B.25. Cases in Which Victim Knew Subject___________________________________________ 39
                 Table B.26. Subjects Alcohol and/or Drug Involvement____________________________________ 41
                 Table B.27. Age Range of Subjects____________________________________________________________ 41
                 Table B.28. Subject’s Affiliation______________________________________________________________ 41
                 Table B.29. Military Subject’s Pay Grade_____________________________________________________ 42
                 Table B.30. Action Taken Against Subjects_ _________________________________________________ 43
                 Table B.31. Action Taken Against Convicted Military Subjects_____________________________ 43
                 Table B.32. Action Taken Against Convicted Civilian Subjects_____________________________ 44
                 Table B.33. No Action Taken Against Military and Civilian Subjects_______________________ 44
                 Table B.34. Case Status at Closure When No Action Taken Against Subjects_____________ 44
                 Table B.35. Subjects Ordered to Register as Sex Offenders_________________________________ 45
                 Table B.36. Age Range of Victims_____________________________________________________________ 45
                 Table B.37. Victim’s Gender___________________________________________________________________ 46
                 Table B.38. Subject-to-Victim Relationship Type_ __________________________________________ 46
                 Table B.39. Victim Cooperation______________________________________________________________ 46




50 │ DODIG-2014-105
                          Appendixes




Appendix E
Independent Review




                     DODIG-2014-105 │ 51
Management Comments




                 Management Comments
                 CID Comments




52 │ DODIG-2014-105
                        Management Comments



CID Comments (cont’d)




                              DODIG-2014-105 │ 53
Management Comments



                 CID Comments (cont’d)




54 │ DODIG-2014-105
                Management Comments



NCIS Comments




                      DODIG-2014-105 │ 55
Management Comments



                 NCIS Comments (cont’d)




56 │ DODIG-2014-105
                 Management Comments



AFOSI Comments




                       DODIG-2014-105 │ 57
Management Comments



                 AFOSI Comments (cont’d)




58 │ DODIG-2014-105
                          Management Comments



AFOSI Comments (cont’d)




                                DODIG-2014-105 │ 59
Management Comments



                 AFOSI Comments (cont’d)




60 │ DODIG-2014-105
                                                                          Acronyms and Abbreviations




Acronyms and Abbreviations
         AFI Air Force Instruction
       AFOSI Air Force Office of Special Investigations
     AFOSIH Air Force Office of Special Investigations Handbook
  AFOSIMAN Air Force Office of Special Investigations Manual
       AFPD Air Force Policy Directive
     AFSVTP Advanced Family and Sexual Violence Training Program
          AR Army Regulation
         CID U.S. Army Criminal Investigations Command
       DoDD Department of Defense Directive
        DoDI Department of Defense Instruction
      DoD IG Department of Defense Inspector General
        DNA Deoxyribonucleic Acid
         FAP Family Advocacy Program
       MCIO Military Criminal Investigative Organization
        NCIS Naval Criminal Investigative Service
 OPNAVINST Department of the Navy Chief of Naval Operations Instruction
       QMD Quantitative Methods Division
 SECNAVINST Secretary of the Navy Instruction
       UCMJ Uniform Code of Military Justice




                                                                                     DODIG-2014-105 │ 61
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
